No. 20-332

IN THE

SUPREME COURT OF THE UNITED STATES

MAGGY HURCHALLA

Petitioner,
v.
LAKE POINT PHASE

I, LLC & LAKE POINT PHASE II, LLC,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
FOURTH DISTRICT COURT OF APPEAL OF FLORIDA

BRIEF AMICUS CURIAE FOR THE
"PROTECT THE PROTEST" TASK FORCE,
THE CATO INSTITUTE, AND THE
INSTITUTE FOR JUSTICE
CERTIFICATE OF SERVICE
I, Lauren C. Regan, a member of the bar of this Court, hereby certify pursuant to Rule
29.3, and Rule 29.S(b), that on this 10th day of October, 2020, all parties required to be served
have been served copies of the Brief of Amicus Curiae "Protect the Protest" task force, the Cato
Institute, the Institute for Justice in Support of Petitioner, by United Sta tes Postal Service, First
Class Mail to the addresses below , and electronically to the email addresses below.
ETHAN J. LOEB
SMOLKER BARTLETT LOEB
HINDS & SHEPPARD, P.A.
100 N. Tampa Street, Suite 2060
Tampa, FL 33602
EthanL@smo lkerbartlett.com

DA YID M. LEHN
WILMER CUTLER PICKERING
HALE AND DORR LLP

C. Regan
The ivil Liberties De ense Center
1430 Willamette St. #359
Eugene, Oregon 97401
(541) 687 -9180
LRegan@CLDC.org

